Petitioner’s Appendix pages with the attached
Petitioner’s Writ for Certiorari.

16 | P a g e

!

i

Supreme Court of jflontui
MONDAY, JUNE 8, 2020
CASE NO.: SC20-464
Lower Tribunal No(s).:
4D20-500;
4D19-33 5;
4D18-3539;
4D18-2305;
4D18-80;
062017CA000822AXXXCE
DAVID ARCHER

Petitioner(s)

vs.

WINN DIXIE STORES, INC.,
ETAL.
Respondent(s)

To the extent that petitioner seeks a writ of prohibition, the petition is hereby
denied because petitioner has failed to demonstrate that a lower court is attempting
to act in excess of its jurisdiction. See Mandico v. Taos Constr., Inc., 605 So. 2d
850 (Fla. 1992); English v. McCrary, 348 So. 2d 293 (Fla. 1977). To the extent
that petitioner seeks mandamus relief, the petition for a writ of mandamus is
hereby dismissed. See Mathews v. Crews, 132 So. 3d 776 (Fla. 2014). No motion
for rehearing will be entertained.
CANADY, C.J., and POLSTON, LABARGA, LAWSON, and MUNIZ, JJ.,
concur.
A True Copy
Test:

John A. Tomasino
Clerk, Supiefoe Court

&
■

* 6 p f v°

CASE NO.: SC20-464
Page Two

db
Served:
WESLEY L. CATRI
DAVID ARCHER
HON. LONN WEISSBLUM, CLERK
HON. BRENDA D. FORMAN, CLERK

IN THE SUPREME COURT OF THE STATE OF FLORIDA
CASE No: SC20-464
DAVID ARCHER
Petitioner.
v.

Case No:4D 18-2305 L.T.No 17000822(13)

WINN DIXIE STORES INC, et al.,
Respondent.

ON APPEAL FROM THE DISTRICT COURT OF APPEALS
FOURTH DISTRICT, STATE OF FLORIDA.
MEMORANDUM IN SUPPORT OF PETITIONER’S

MOTION FOR RECONSIDERATION AND CLARIFICTION OF
ORDERS DATED 06/08/ 20 AND 06/16/20 AND REINSTATEMENT ON
PETITIONER’S WRIT OF PROHIBTION AND THE INADVERTENTLY
DENIED MOTION “WRIT OF MANDAMUS” WHICH DENIAL AT
ISSUE WAS NOT FILE AT NO TIME BY PETITIONER BUT THIS
COURT ERRED “TO THE EXTENT” EVIDENTLY , WHEN DENIED
BY THIS SUPREME COURT OF FLORIDA

GROUNDS FOR REINSTATEMENT
WITH APPENDICES

THE COURT ERRED, WHEN IT DEPRIVED THE PETITIONER OF HIS
CONTITUTIONAL RIGHT TO ACCESS A WRIT OF PROHIBTION AND
REMOVAL OF JUDGE FROM RULINGS. PETITIONER IN FEAR OF
1 | Page

Pi? ? gnv>\ kCP)

BIAS AND INJUSTICE TRIAL BY AMBUSHED REQUESTED THAT THE
JUDGE RECUSE HIMSELF FROM THE CASE , IN VIOLATION
OF THE FIRST AMENDMENT AND DESPOTISM DISPLAYED: [ THE
DECLARATION OF INDEPENDENCE AND THE CONSTITUTION OF THE
UNITED STATES OF AMERICA ] COUNSEL FOR RESPONDENT FAILED
TO CHALLENGE THE JUDICIAL ATMOSPHERE FOR WRIT OF
DISQUALIFICATION RESULTED FROM THE DUO RELATIONSHIP AND
THE COURTS’FAILURE TO INQUIRE INTO MISCONDUCT EXPRESSED
THROUGHOUT THIS ACCUMULATION OF FUNDAMENTAL ERRORS

AND IRRAPARABLE HARM OVERLOOKED BY THE COURTS .
STATEMENT OF THE CASE AND OF RELEVANT FACTS
NATURE OF CASE

On 01/11/17 Petitioner’s case was filed for damages against Respondent in a
Slipped and Fall case, sustaining permanent injuries from date of incident on
01/17/13 as filed in the complaint in

the 17th seventeenth Judicial Circuit

Court In and for Broward County, Florida and Appealed to the Fourth
District Court Of Appeals; Now is before the Supreme Court of Florida to
Appropriately grant and correct the Courts inadvertence for denying
Petitioner’s Motion for Writ of Prohibition where counsel for Respondent
Attorney , Wesley Catri SR, is a Personal longtime friend of the Judge,

2 | P age

Michael A Robinson, who failed to recuse himself from the case as stated
grounds herein set forth with supporting legal appendices as follows:
COURSE OF PROCEEDINGS

On 03/02/20 consolidated filing fees was paid, when Petitioner made a direct
Appeal to the Fla Supreme Court as filed in the Fourth District Court of Appeals
of Florida,
On 06/16/20 , this Florida Supreme Court erred when it denied
Petitioner writ of mandamus on its own without any motion file by Petitioner
Requesting to grand the unfiled invisible motion ,to “the extent” was imagined
The Fourth District Court lacks jurisdiction to dismissed this case and or issue
Mandate while this court has jurisdiction under assigned Case No: 4D18-2305
but inadvertently the 4DCA dismissed Case No: 4D20-0490, on all of the
consolidated cases. Petitioner seeks this court to recall mandate issue out of
jurisdiction by taking corrective action set out in the U.S Constitution and
Florida’s Constitution
On 03/26/20 notice to invoke , Discretionary Jurisdiction of the Fla Supreme
Court was filed.
On 03/27/20 Petitioner’s Motion for Writ of prohibition was acknowledged by
the Florida Supreme Court, on all consolidated Cases No; 4D20-0490/4D200500/4D18-2305/4D18-0080/ 4D19-0335.
3 | P age

On 04/02/20 SC20-464 ,Florida’s Supreme Court Docket Acknowledgement of
New Case
On 04/29/20 due to the CORONAVIRUS (CORVID19) Shut Down/stay at home
orders , the Florida Supreme Court Granted 15 days to Comply with the Orders of
the Court.
On 05/6/20 the Fourth District Court INADVERTENTLY DISMISSED CASE
NUMBER 4D20-0490.
On 05/11/20 Petitioner Filed CERTIFIED MAILED the Writ of Prohibition
Together with payment Expressed Mailed #EJ178877986US WITH MONEY
ORDER TO THE FLORIDA SUPREME COURT , FROM THE UNITED
STATES POSTAL SERVICE.
On 05/14/20 on or about 7: 45 am FLORIDA SUPREME COURT RECEIVED
THE MOTION FOR WRIT OF PROHIBTION AND THE FILING FEES ON
TIME WAS POSTED AS “PROPER PETITION” BY THE COURT.

On 06/08/20 this Florida Supreme Court inadvertently denied Petitioner Writ of
Prohibition for failure to state , to “demonstrate that a lower court is attempting to
Act in excess of its jurisdiction” Petitioner’s reasons in the first place for filing
the appeal in the fourth District Court and in the Fla Supreme Court Pursuant to
Florida Rules of Appellate Procedures P.9.100 (e) (h) and cited case .See Bundv
4 | P a ge

v. Rudd. 366 So 2d 440 (Fla 1978) Oliveira v. State. 765 So 2d 90 (Fla 4th
D.C.A. 2020)
On 06/08/20 Petitioner filed for clarification of order and Petitioner’s motion was
Denied as “to the extent that Petitioner seeks mandamus relief, the petition for writ
of mandamus is dismissed” Petitioner respectfully move to have the order
vacated and to reinstate writ of mandamus to prevent irreparable harm to
Petitioner.
Conclusion
This Florida Supreme Court should correct the errors of Courts and remand to
The tribunal Pursuant to Ha Rules of App . P 9.330 , granting writ of Prohibition
And writ of mandamus for a new trial for Damages , because Petitioner showed
and demonstrated by appealing all bias orders of abused of discretion and action
out of jurisdiction in dismissing Petitioner’s action under appealed ., Shores
Hospital. Inc v. Barber. 143 So 2d 849 (Fla 19621 Commercial Garden Mall v.
Success Academy Inc.. 453 So 2d 934 (Fla 4th DCA 1984)
Petitioner showed good cause for this court not to apply a depositive action
on judicial notice . Accordingly this case should be reverse and remand for
reconsideration bv the trial court consistent with authority. United States v.
Ciavarella. Jr. 18-1498 (3rd Cir 2019)

5 | Page

FULL AND FAIR COMPENSATION FOR INJURIES SUSTAINED,
SUBSEQUENTLY, RESULTED FROM RESPONDENT’S NEGLIGENT AND
LIABILITY. ARISING FROM THE LEVEL OF PAIN, SUFFERING
RELATING TO PERMANENT INJURIES .

Wherefore, Petitioner Seeks this Court to cure by correcting all errors , vacating
its Order of, 06/16/2020 by seeing fact not “intent or to the extent” but allow
Fed Rules Civ. P. 60 (b) and 59 (e) prevail by not trying to “kill two birds with
one Stone” . Remanding to the Tribunal Pursuant Fla Rules Of Civ. R. 1.530 and
Rule 1.540 (b) for reconsideration.

Respectfully submitted on this 20 th Day of June, 2020.
-/

B1
David D Archer
7010 NW 89th Avenue
Tamarac Fla, 33321

6 | Page

✓ -•

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FOURTH DISTRICT, 110 SOUTH TAMARIND AVENUE, WEST PALM
BEACH,FL33401

CASE NO.; 4D18-2305
LT. CACE #17000822
DAVID ARCHER

Appellant / Petitioner (s)

v

WINN DIXIE STORES INC

Appellee /Respondent (s)

..*■

APELLANT’S AMENDED CONSOLIDATED INITIAL BRIEF

APEALED FROM THE ORDERS OF THE 17™ JUDICIAL CIRCUIT COURT OF FLORIDA , IN
AND FOR BROWARD COUNTY , CASE # CACE NO:, 17000822 (13) JUDGE MICHAEL A
ROBINSON ; 4Df«-0080 [4D18-2305] [4D18-3539] AND [4D19-0335]

TABLE OF CONTENTS
.\
.

J

Tables Of Contents

page 01

Table Of Citations and Authorities

page 02

Standard of Review

page 03.

Preliminary Statement.

page 05

Statement Of The Case And Facts

page 08

Summary Of Argument.

page 17

Conclusion

page 18

Appendix
Certificate of service

1 | !r' :■ g r

page 19
page 20

i

Tables Of Citations and Authorities
Zeigler v. Huston, 626 So. 2d 1046,1047 (Fla 4th DCA 1992)

page 04

Rules; F.R.C.P. 1.420 (e) 1.540 (b) 1.530 (b) & (c)

page 04

Fla Philharmonica Orchestra, Inc. Vs .Bradford, 145 So 2d, 3d 892,894 (Fla 4th DCA 2014)..page 07
Molinos Del S.A . Vs. EL Dupont de Nemours & Co, 947,So 2d 521,524 (Fla 4' DCA2006)page 05
Martini Vs. Young 921 So. 2d 647 (Fla 5th DCA 2005)

page 05

Bank one, N.A. Vs. Batronie 884, So 2d 346, 348 (Fla 2nd DCA 2004)

page 07

Florida Constitution art v. section 3(b) (4)

page 08

Dixie Stores Inc .V. Benton, 576 So. 2d 359, 360 (Fla DCA 1991)

page 08

EG, Frenz Enter, Inc Vs. Port Everglades, 746 So 2d. 498, 502 (Fla App. 1999)

page 08

State v. foley 193 So 3d 24, 26 (Fla 3rd DCA 2016)

page 08

Gibson Vs. Maloney 231, So 2d 823, 824 ( Fla 1970)

page 08

36 ART .V, section 3 (b) (4) of Fla Const, Pino V. Bank Of New York ( Fla DEC 8, 2011)

page 08

Bell v. U.S.B. Acquisition Co, 734 So 2d, 403 (Fla 1999)

page 08

Fla R. Civ P 1.190

page 09

Fla R. Civ P 1.090 (a) & (b) (1) &(2)

page 10

Fla R. Jud. Ad. 2.160 (d)(1)

page 11

Fla Stat, 38-10

page 11

Fla Const, art v section 3(b) (4)

page 11

Pino v. Bank of New York ( Fla DEC 8, 2011)

page 11

Bell v. USB Acquisitions Co, 734, So. 2d. 403 (Fla 1999)

page 12

Fla R. Jud Ad .2.516- 2.516 (b) (1)

page 13

Fla R. Civ. P 1.190

page 13

Kline v. layne Inc of Fla 453,So 2d. 203, 204, (Fla 4th DCA 1984)

page 16

2I

STANDARD OF REVIEW

There are several issues of whether, “that the parties conduct was
willful and contumacious” if Plaintiff’s counsel is entitled to be awarded
fees and cost for not filing any motions to strike, to dismiss or any
objections besides the untimely safe harbor excuse with expectations, that
counsel will sufficiently demonstrate, why no motions were filed with
excusable neglect to avoid the entry of Default in the tribunal court as
statues and rules so requires. Zeigler v. Huston 626 So 2d 1046, 1047 (Fla
4th DCA1992)
(I)

(II)
Whether, Appellee having knowledge refused to obey or respect the
applicable laws and rules, when the Amended Complaint was filed after
Counsel moved to dismiss the original complaint, for failure to state a
cause of Action and knew then, the Court’s instruction to all parties to file
Answers to the Amended Complaint. Appellee, failed to monitor the
cause and or seek an enlargement of time to defend the case.
(Ill) Evidently, counsel now is perceived and seems to think, that this
court will comprehend counsel’s and the Judge inappropriate misconduct,
who together failed by not giving Appellant hearing dates and further, by
granting counsel all motions docketed.
(IV) Accordingly, Appellant asked the Judge to recuse himself from the
case, because of “conflict of interest or lack of impartiality” the judge own
dismissal of the case that lacked the jurisdiction of the tribunal actions,
once appealed and since “ under the umbrella” orders cam e from the
Fourth District Court of Appeals. The Judge actions should be reversed
and not be entertained by any court of law , given the irreparable harm
the duo relationship created
(V) Whether, [t] he Judge and Counsel Misconduct now cause for a full
investigation in compliance with Florida’s Constitution and states laws
and if the merits of the allegations meets the minimum “ judicial

3l -

threshold” for the Florida’s Supreme Court appellate review on recusal and
discipline of the duo misconduct.
(VI) Whether, now is the suitable time to persuade this court of appeals
on issues never, previously raised in the tribunal before and now for
Counsel for Appellee failure to state findings without factual supporting
Appendix to collaborate any theory and not to merely rely on cited cases,
only.
(VII) Whether, counsel’s safe harbor defense, together with Counsel
failure not to comply with the orders of the previous Judge and the now
presiding judge ruling should be reversed as requested by Appellant’s
petition to this Appellate court.
(VIII) Whether, motions filed by Appellee, should be stricken from the
records as pertaining to amended orders and subject matter, dismissal of
11/26/18 - dismissal without motion to dismiss by Plaintiff and on
01/07/19 amended order of dismissal by the court, was in full compliance
of F.R.C.P rule 1.420 (e) Dismissal of action .

(IX) Whether, Attorney’s fees was for sanctions and cost on Default filed
on 05/17/17, knowingly, the court refused to set a hearing on Default
until pressured by Appellant. Subsequently, was heard on July 24th 2018
and without arguments, was denied .
(X)
Whether, Counsel is collecting cited cases authorities as
propositions to illustrate the principle subjects why counsel did not file
appropriate motions prior to the appellate process.
(XI) Whether, Appellee failed to file and or respond to Default
motion filed by the Plaintiff in the Tribunal Court, now counsel perceived
that he would get away with misconduct and is seeking this court to go
along with his plans. This court should relinquish jurisdiction .F.R.C.P.
1.540 (b) and rule 1 .530 (b) and (c)
4 |

“A motion for a new trial or for rehearing shall be served not later than ten 10 days after the
return of the verdict in a jury action or the date of filing of the judgment in a non- jury action.”
Molinos Del S.A. v. E.L. DuPont de Nemours & Co.. 947 So 2d 521.524 (Fla 4th DCA 20061 The
• order of the court dismissal was on 01/07/19 and timely filed . APP- Rule 9.020 . Appellant’s
motion was filed on 01/15/19 pursuant to F.R.C.P. RULE 1.530 with a second motion filed on
01/28/19 for RECOSIDERATION OF THE COURT’S ORDER. Whereas. Appellee failed to strike or
opposed motions . until the final amended order was appealed on 02/05/2019 and consolidated
order granted on 03/11/2019 and relinquishment filed by Appellant on 03/12/2019. Martini v. Young.
921 So 2d 647 (Fla 5th DCA 2005) Note: this case is very complex with numerous orders and
Amended orders which calls for Default as it relates to damages.

(XII) Whether. Counsel was the Attorney at the time, when Entry
for Default was filed and he was not. Counsel is blaming the United
States Postal Service for Counsel not timely responding, neither
seeking an extension for enlargement of time to file answers to
Appellant’s Amended Complaint.
Nothing would Qualify Counsel
defense as excusable neglect and or warrants this case to be dismiss
bv the court. The plain truth . Counsel was not the Attorney at the
time: Attorney Wesley Catri Jr. and Attorney Holton, were Appellee’s
Counsel with the Previous Judge. William W. Haurv Jr. who once
presided over the case, until the replacement of Judge Michael A.
Robinson.

PRELIMINARY STATEMENT

APPELLATE’S COURTS REVIEW FROM THE 17th JUDICIAL
CIRCUIT COURT IN AND FOR BROWARD COUNTY FLORIDA.
This case was originally heard by the Honorable Judge William W.
Haury Jr, and for reasons stated herein Appellee Counsel was able
to have the case assigned to his friend Judge Michael A Robinson.
The duo first met years ago when the Judge went to the gas
5 |

^

Station for gas and the Judge forgot his credit card in the pump
Vending machine. Without hesitating, counsel drove and caught up
with the presiding Judge and did returned to him his property. Ever
since, the duo became friends. On January the 28th 2018 the eve of
the hearing counsel was able to have the Judge signed an order
and

E- Filed it, by entry docket as recorded that said instrument

was docked. (Other phone records and evidence will validate the
duo relationship) . Appendix (A)
01/08/2018. 4D18-0080 THIS MATTER CAME BEFORE THE
TRIBUNAL COURT ON WAGES CLAIM AND THE TRIBUNAL
DENIED APPELLANT WITHOUT

PROPER

FINDINGS AND

FACTS OF LAW , CAUSING IRREPARABLE HARM AND
INJURIES BY NOT ALLOWING THE LOSS WAGES TO
APPELLANT . COUNSEL AND JUDGE ARE DUO FRIENDS.
THIS

COURT HYPOTHETICALLY DISMISSED THE APPEAL

WITHOUT OPINION. DISMISSED FOR LACK OF
JURISDICTION AND DECLEARED IT MOOT ON 03/16/18.
6 |

a

CONSOLIDATED ON 03/11/2019 BY PARTIES AS AGREED.
(1)07/31/2018. 4D18-2305 THIS MATTER CAME BEFORE THE
TRIBUNAL COURT ON MOTION AS REJECETED BY THE
COURT AND DENIED, WHEREBY, AT ISSUE WAS DEFAULT
AND SANCTIONS BASED ON DENIED DEFAULT. THIS
COURT ON 10/04/2018 DENIED IN PART; APPELLEE’S
MOTION AS STATED “THE MOTION IS DENIED AS TO
THE ORDER GRANTING THE MOTION FOR ATTORNEY’S
FEES AND COST”. Bank one, NA, v Batronie.884,So 2d, 346,
348 (Fla 2nd DCA 2004)
(2) BECAUSE OF THE DUO CONNETION , THE PARTIES
COUNSEL AND THE JUDGE BY FABRICATION SAW IT TO
ORCHESTRATE BY ACTION TO AND BY
MISREPRENSENTATION BY BOTH DECEPTION UPON THE
COURTS , BY KNOWINGLY AND INTENTIONALLY MAKING
FAULTS AND MISLEADING CONSPIRACY ACTS AND
ORDERS AS FILED ON 01/28/2018, A SUNDAY WHILE THE
COURT WAS CLOSED. WHEREAS, THE ORDER WAS
SIGNED BY THE JUDGE AND FILED BY THE ATTORNEY FOR
WINN DIXIE STORES . A MOTIONS TO ACHIEVED A “ WIN
AT ANY COST” . STATING THAT DEFAULT WAS DENIED
AND SANCTIONS PURSUANT TO 57.105 APPLIED UNDER
THE CIRCUMSTANCES. Fla Philharmonics Orchestra, Inc Vs. Bradfprd, 145
So . 2d 3d ,892,894.( Fla 4th DCA 2014)

(3)11/29/18 . 4D18-3539 ORDER GRANTING RELINQUISHMENT
DATED 12/17/2018 ORDER OF DISMISSAL . THIS
APPELLATE COURT DEMANDED AN ANMENDED ORDER ON
NOVEMBER 5™ 2018 SEEKING FACTUAL PROOF AS
REQUIREMENTS TO THE TRIBUNAL EVIDENCE IN
REQUESTING FEES AND TO STATE THE FACTS, VERIFYING
THE PRESCRIBED NATURE OF THE DETERMINATION OF

CONCLUSION OF THE COURT’S DECISION TO GRANT
APPELLEE’S FEES AS SANCTIONS. APPENDIX (B)
(4) 4D18-2305-4D18-3539, INSTEAD OF THE TRIBUNAL COURT
COMPLYING WITH THE APPELLATE COURT’S
INSTRUCTIONS, THE LOWER COURT DISMISSED THE CASE
ON 11/26/2018 ON ITS OWN, WITHOUT PROPER MOTION,
DESPITE APPELLANT’S MOTION TO STAY.
SUBSEQUENTLY, THIS COURT ERRED BY ALLOWING THE
TRIBUNAL TO AMEND NOT BY AUTHORIZATION AN
UNAUTHORIZED AMENDED ORDER, NOT IN COMPLIANCE
OF THE DATED NOVEMBER 05, 2018 AND DECEMBER 12,
2018 INSTRUCTED ORDERS. THE AMENDED ORDERS DID
FAILED TO COMPLY WITH THE APPELLATE COURT
ORDERS IN TERMS OF EVIDENCE OF THE REQUISITE
FACTUAL FINDINGS SHOWING DELIBERATE OR
WILLFULNESS. WHEREBY, THE AMENDED ORDERS DID
NOT MEET THE EXPECTED RESULTS DEMANDED BY THE
APPELLATE COURT ORDERS. DESPITE APPELLANT’S
MOTION TO STAY. Art V, Section 3 (b) (4) Fla Const. . APPENDIX (C)

(5) 4D19-0335 THIS COURT SHOULD PREVENT IRREPARABLE
HARM CAUSE BY THE JUDGE AND COUNSEL .Dixie stores, me.
Vs. Benton, 576 So. 2d .359, 360, (fia DCA 1991) EG Frenz Enter, Inc V. Port
everglade, 746 So 2d 498, 502 (Fla Dist APP. 1999) See; state v. foley 193 So 3d 24,26
(Fla 3rd DCA. 2016) see; Gibson v. Maloney 231, So . 2d 823,824 (Fla 1970) 36 ART, V.
SECTION 3(B) (4) OF FLA CONST, PINO V. BANK OF NEW YORK (Fla DEC 8 2011)

(6)4D18-0080 was Dismissed for lack of Jurisdiction bv this
court

Statement of the case and facts
8|Page

(1)

On January 17th 2013 , Appellant was an invitee, occupied by the

Respondent as stated in the complaint filed in the 17th Judicial circuit
court in and for Broward County of the State of Florida on January 12th,
2017. Respondent was properly served.
(2) On January 30th 2017 Defendant Winn Dixie Stores Inc, Moved to
dismiss the Complaint in which originally, the Honorable Judge William
W . Haury JR , presided over the case.

(3) On March 16th 2017 Appellant filed Plaintiff’s David Archer Reply in
Opposition to Defendant’s (Winn Dixie Stores Inc) Motion to Dismiss
Plaintiff’s Complaint
(4) On April 17th 2017 Appellant Amended the complaint Pursuant Fla
Civ P.1.190.
(5) On April 20th 2017 The Honorable Judge William W. Haury JR.
Granted leave to the Amended Complaint pursuant to the Applicable Laws
With instructions to both Parties to the attached Amended Complaint
Granted Motion Filed on April 17th 2017.
(6) FLA. R. CIV P. 1.190. in part “ Otherwise a party may amend a
pleading only by leave of the Court or bv written consent of the
adverse party” A part shall plead in response to an amended pleading
9 I : ; <2 i

within (10) ten Days after service of the amended Pleading. UNLESS
THE COURT OTHERWISE ORDER.
(7) Respondent failed to comply as ordered on 04/20/ 2017 by The
HONORABLE JUDGE WILLIAM W . HAURY JR and subsequently to the
reminder during the 05/01/2017 hearing held on Plaintiffs motion to
appoint new Counsel for Appellant. Despite the warning from the court
Counsel failed to request and or seek according to law an enlargement
of time, in which there is absolutely no automatic extension of time that
allows and or protects any Counsel from excusable neglect.
IRREPARABLE HARM BY DUO NEW JUDGE AND COUNSEL
(8) Appellant filed for Default Entry under The Honorable Judge William
W Haury JR , for all unknown reasons Previous Counsels, Wesley Catri
Jr and Attorney Holton were replaced by the father Wesley Catri Sr, who
is well versed and failed to show excusable neglect, instead use his
friendship with the judge to avoid entry of default,

about Fla R. Civ. P.

1.090 (a) & (b) (1) and (2) of the rules,
The two whom still remains “ duo “ personal friends ,Wesley Catri Sr. and
The Honorable Michael A Robinson became apparent .after Wesley
io |

.

Catri Sr. first met with the judge years ago; Michael A Robinson went to a
Gas station for Gas and forgot his credit Card in the vending machine,
whereby, Attorney Catri drove and caught up with The Judge. Michael A
Robinson and returned to him . the card. Ever since the Duo became best
of friends. Said judge, refused to allow his judicial assistance to give
Appellant any hearing dates or fair trial in this case. In light of the matter.
Appellant was forced to asked the Judge to recuse himself, which the
Judge denied Appellant’s request to recuse himself when
Demanded by Appellant to do so under the circumstances that “Trial bv
Ambush ” obviously became inevitable. Appellant was refused hearing
dates on all motion and was told BY THE JUDICIAL ASSISTANT OF THE
JUDGE MICHAEL A ROBINSON “THE JUDGE HAS TO GIVE IT TO
YOU” THE RECORD WILL SHOW THAT ALL HEARINGS WAS DONE
OR MADE BY COUNSEL WITHOUT ADDING APPELLANT’S MOTION
TO THE CALENDER DATE SET. APPENDIX (D)
the Prescribed Procedures Under Fla R.Jud. Admin 2.160 (d) (1) and Fla
Statue section 38.10.

On 05/05/2017 Counsel for the Respondent filed in court an offer of
settlement to Appellant, in the amount of $35000 which counsel withdrew
the offer on the same day in violation of the 30 days rejection terms.
li |

On 05/05/2017 the same day Counsel in advanced premeditated to
seek cost with attempted defense in placed for cost in order to carry out
his plans. Counsel motion should be denied since counsel violated the
statue to recover cost by way of motion to withdraw the offer of settlement
the same date of offer right after the motion for settlement was filed.
Counsel is a well seasoned Attorney who is really smart and
Knowledgeable of the rules of the system of law and failed to comply with
the Florida Rules Of Civil Procedures and Applicable laws
Counsel claimed that all medical bills were too expensive , in light counsel
claims are frivolous . if “ milking the cow” terms had to be used .counsel’s
great example can’t be questioned. Under the circumstances of rules of fla
civ p 1.500 default should be entered against the Respondent in the sum of
$1.600.000.00 and or this case be remanded for damages.
Matters of interest certified as “great public importance “ this cause calls
For Justice not to be lable as “denied”, “dismissed, treated as, lacked of
jurisdiction, not authorized” miscellaneous” mooted, other substantive 36
ART V. SECTION 3(B) (4) OF FLA CONST . PINO v. BANK OF NEW
YORK (FLA DEC 8 2011). BELL v. USB - ACQUISITION CO, 734 So 2d
12 | -

r

403 ( Fla 1999) Appellee’s Pleadings are to detour the court
from misconduct and the filing of motion under 57.105 does not overturn
the untimely answers required to a timely response under the court of
law. Fla Rules

of Judicial Administration 2.516, particularly 2.516(b) (1)

(E) the 21 days safe Harbor rule claimed by Respondent was not in
Compliance with Fla R. Civ. P.1.190 and did not follow Florida Rules of
civil procedures . Procedural^ Counsel did not meet the Expected
requirements outlined to avoid default entry AND SHOULD NOT BE
CONSIDERED A PREVAILING PARTY. RESPONDENT DEFENSE
WAS NOT

SUPPORTED BY THE SURROUNDING CIRCUMSTANCES

OF MATERIAL FACTS THAT REQUIRES COURTS TO IMPOSED
SANCTIONS; WITHOUT REGARDS FOR THE SUBSTANTIVE MERITS
OF APPELLANT’S PLEADING WHICH WAS NOT ENTERTAIN BY THE
COURT UNTIL AFTER THE FACTS AND ALL ORDERS APPEALED .
07/24/18 DEFAULT ENTRY FLA RULES CIV . P.1 500.(B)
On 05/17/2017 Appellant filed for Entry of Default, Appellee fail to defend
In a timely manner to strike and or dismiss Appellant’s Motion.
On 06/06/2017 Appellant filed to stay and to withdraw entry of default,
13 |

:

i'-'

which motion was denied by order of the court.
On 06/15/2017 the court’s order did ruled on Appellee’s motion to compel
to impose sanction . But not on Attorney’s fees , for Default 57.105
sanctions on safe harbor clause, which is not a correct defense as it
pertains to excusable neglect.
On 11/09/2017 Appellee filed to strike Appellant’s wage claim and for
sanctions. Appellee’s Motion was not related to sanctions for the filing of
default. WESLEY CATRI SR. APPEARED AS NEW COUNSEL.
On 12/28/2017 Appellee made a request for compulsory physical
Examination and sanctions.
On 12/29/2017 filed its motion for Attorney’s fees and cost.
On 01/03/2018 Appellant filed to stay all hearings pending hearing filed on
Default motion dated 05/17/17 and to strike Appellee’s Motion for
Attorney’s Fees and cost, said not requested by Appellee for sanctions
under Default on 57.105 rules.
On 01/28/2018, the duo on Sunday prior to the morning of 01/29/ 2018
Hearing conspired the trial of 03/26/18 and there-after.

14 |

On 01/30/18 Appellant’s filed a motion to Disqualify the judge and was
Denied by the Judge on 02/06/2018.
Appellant seek declaratory relief for damages and default vacating the
order of dismissal dated November 26, 2018 . and January 7, 2019 of its
instruments 115478603 and 115552164 Whereas, the records and
instrument # 67150318 demonstrated acts of unethical conduct and entry
of orders should be voided : MADDRIE V. MC DONOUGH. 945 SO. 2D
573.574 (FLA 1ST DCA 20061 appellee’s amended order is not supported
BY PRACTICAL EVIDENCE BUT IS A SCENARIO THEORETICALLY POSSIBLE BUT NOT
VERY LIKELY. IT IS WELL PUT TOGETHER WITHOUT FACTS .

Appellee Winn Dixie Stores Inc failed to file any motion to strike
Appellant’s Motion for entry for default. Appellant moved to withdraw
Default to allow the Appellee to have an excusable neglect or meritorious
excuse to avoid default. Appellee failed to comply with the applicable
statues and laws and Counsel and the Judge, violated the trust and ethics
of the COURTS, FLORIDA BAR OF ATTORNEYS AND THE UNITED
STATES COURTS .see; Gibson Trust, Inc, V. Office of Atty Gen, 883 So.
2d 379, 382. (Fla 4th DCA 2004)
November 05, 2018 this court allowed the trial court 30 days to address

is I:

The issue on Attorney’s fees based on Default and the safe harbor clause
Appellee , provided no findings that the issues were raised previously.
Whereas, the amended order raised for the first time issues facing this
Court as to default and Attorney’s Fees and cost as a sanction should
be considered untimely . APPENDIX (E)
Furthermore, the tribunal dismissed the case so as not to address the
issues. The trial Court entered several orders which this appellate court
has jurisdiction pursuant to Florida R. Civ. P. 1.540 ( Db) to invoke powers
under the circumstances as demonstrated by false defense arising
From Appellee’s misrepresentation and intentional misconduct upon the
Court. see; Klein V. Layne, Inc of Fla., 453 So. 2d 203, 204 (Fla 4th DCA
1984)
SUMMARY OF ARGUMENT
(1)Appellant maintained that the records will show that Appellee
and the judge are good friends and was able to reach thus far.
Appellee failed to Defend this case as it relates to Default filed
issues. New Counsel never represented Appellee until default
was filed despite, the fact that his law firm did appeared and not
Wesley Catri Sr. Wesley Catri Jr, and Attorney Holton ,appeared
before both Judges Judge Haury And Judge Robinson.

16 |

(2) Appellant as unsuccessful party, was prevented from exhibiting
fully his case as a result of the duo relationship, fraud or
deception practiced on Appellant by Appellee’s
misrepresentation of facts of the case, making false compromise
leaving no real contest in the trial or hearings; Therefore, the
orders of the court should be set aside or annul and the case
open for a new and fair hearing ;Bank one, NA, v. Batronie
884,So 2d, 346,348 (Fla 2d DCA 2004) Fla Philharmonica
Orchestra, Inc v. Bradford, 145 So 2d,3d 892,894 (Fla 4th DCA
2014). Appellant shown no ” willfulness or deliberate disregard” for the
orders of the courts.
ARGUMENTS AND CITATIONS OF AUTHORITY
Whereas, “On motion and upon such terms as are just, the court may
relieve a party or his legal representative from a final Judgment,
decree, order or proceeding for the following reasons.;
MISTAKES, INADVERTENCE, EXCUSABLE NEGLECT, NEWLY
DISCOVERED EVIDENCE, FRAUD, ETC; (3) FRAUD (Whether
Heretofore denominated intrinsic or extrinsic) misrepresentation, or
Other misconduct of an adverse party”; Fla R. Civ P. 1.540(b) see
Barns & Mattis, 1962 Amendment to the F.R.C.P, 17 U Miami L.
Rev; 276 ,296- (1963), 453, So 2d, 375 (Fla 1984) Brown v, Brown ,432
So 2d 704 ((Fla 3d DCA (1983)
COUNSEL’S ACTIONS SHOULD BE REPRIMANDED BY FLORIDA’S
17 |

BAR. TOGETHER WITH SANCTIONS BY THE COURT
See; Somero V. Henry General Hospital, 467 So. 2d 287 (Fla 5th DCA 1985)
See; Molinos Del S.A. Vs. E L Dupont de Nemours & Co. 947, So 2d 521, 524,(Fla 4th DCA2006)

CONCLUSION

Wherefore, Appellant respectfully seeks this Honorable Appellate
Court to vacate the court’s own dismissal order of 11/26/18 and the
amended dismissed order of 01/07/19 by way of the Judge
disqualification on this case, assigning the previous judge by
remanding this case to the lower tribunal for damages as a result of
Appellee’s failure to seek an enlargement of time and the duo
relationship causing irreparable harm by teaming up against
Appellant to dismiss the case, by not giving Appellant hearing dates.
Therefore, Appellee’s failure to respond in A timely manner and
knew or should have known to move to strike or dismiss, when
nevertheless failed to seek an enlargement of time to prevent the

18 |

entry of Default. Appellant seeks this court to relinquish
Jurisdiction to the tribunal and or remand as to Damages.

Respectfully Submitted on this 15th Day of April 2019.

David /-ArcfiSr'N^ Appellant
/z
By:

7ft+0> NW 89th Avenue
Tamarac, Florida. 33321.
954-297-5817

APPENDIX.
A
B
C
D
E
F
G
H
19 | p 3 R <?

Certificate of Service

I hereby certify that a true and correct copy of Appellant’s Amended Initial
Brief was mailed on this 15th Day of April 2019 For Winn Dixie Stores Inc ,
to Attorney Wesley Catri Esq, Catri, Holton ,Kessler & Kessler P.A @ 633
South Ap€trgwsA\renue 3rd Floor, Fort Lauderdale. Florida 33301

By:
David Archer. Appellant
7010 Nw 89th Ave
Tamarac Fla.33321
(954)297-5817

20 | P -i

e

^

f

:i^|

Proposal for
Settlement
!
OR RECUSAli
Party: Plaintiff Archer, David

m±

01/30/2018

Motion for
Disqualification

01/29/2018

Order

Objections to See
Defendant's physician

Ik

•a

1

01/29/2018

Order

Objections td Defendant's
12/28/2017 Notice of
Production flom Non-Party

&

1

01/28/2018

Order Resetting

Trial 03-26-1

01/25/2018

Appeals Preparation Fee

Payor: ARCH|ER, DAVID;
Userid: CTS-igraham;

6

i

i
i

2

Receipt:
20181AP1BQ00016;
omments: CASH;
Amount: $1^3.40
I
01/25/2018

Appeals Signing and
Sealing

Payor: ARCHER, DAVID ;
Userid: CTS-sgraham;
Receipt:
20181 API B000016;
omments: CASH;
Amount: $7.00

01/25/2018

Appeals - Copy

I

Payor: ARCHER, DAVID;
Userid: CTS-igraham;
Receipt:
20181AP1 BQ00016;
omments: CASH ;
Amount: $20i.00

Affenpiyt

01/23/2018

Pre-bilfed
Appellant
pending payment
of:

$150.40

01/10/2018

Acknowledgment

4D18-0080

01/10/2018

4th DCA Order

i he jurisdiction of this court
was invoked by filing of a

s

1

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FOURTH DISTRICT, 110 SOUTH TAMARIND AVENUE, WEST PALM BEACH, FL 33401
November 05, 2018

CASE NO.: 4D18-2305
L.T. No.:
CACE17000822 (13)
DAVID ARCHER

v.

Appellant / Petitioner(s)

WINN DIXIE STORES, INC., etal.
Appellee / Respondent(s)

BY ORDER OF THE COURT:
ORDERED that appellee’s October 9, 2018 motion to relinquish jurisdiction is granted
Jurisdiction is relinquished to the trial court for thirty (30) days for the purpose of entering an
amended order on attorney's fees and costs with the requisite findings. The appellee shall
forward to this court a copy of any order issued during relinquishment. It is further ordered
that the appellee shall monitor this proceeding in the trial court. If further time is needed
beyond this relinquishment period, it shall be the duty of appellee to request an extension of
time by proper motion to this court. This case is stayed and shall proceed in this court upon
expiration of relinquishment unless otherwise notified in writing by the parties. Further
ORDERED that appellant's October 15, 2018 "motion on reconsideration in part of the order
dated October 04th 2018; in the alternative staying all lower court orders and proceedings,
additionally, to strike appellee's motion for this court to relinquish jurisdiction, filed on October
9th 2018 is denied. The motion to stay is denied without prejudice to seek relief in the trial
court pursuant to Florida Rule of Appellate Procedure 9.310.
Served:
cc:

Wesley L. Catri

David Archer

Clerk Broward

kh

—i.________ '

LONN WEISSBLUM, Clerk
Fourth District Court of Appeal

*

fffi

<§§^51VT5
'Ks
V

■S>

fourth^

DISTRICT

XS\\

£
©
T

V?

$

EXHIBIT "2"

DAVID

ARCHER

7010 NW, 89™ AVE
TAMARAC, FLORIDA. 33321
954. 297-5817

December 24th, 2018
Via

U.S. Certified Mail: 7013 2630 0001 8478 1193

THE Honorable Judge
Michael

A . Robinson CH. WW14131

201 SE 6th St, Fort Lauderdale , FI 33301
Circuit Court, Seventeen Judicial Circuit.

RE: David Archer/Winn Dixie Stores Inc.
Case.: Cacel7000822(13)
Case No: 4DCA. 2305/3539.
Dear Honorable Judge Robinson;
Please find the attached motion captioned " PLAINTIFF'S MOTION TO STRIKE
DEFENDANT'S MOTION TO AMEND THE COURT'S ORDER OF DISMISSAL DATED
NOVEMBER 26, 2018 AND THE COURTS' IMPROPER DISMISSAL PURSUANT TO
RULE 9.100. IN THE ALTERNATIVE MOTION FOR PARTIAL SUMMARY JUDGMENT
The Appellate order on 11/05/18 requested An order stating why this court
sanction Plaintiff., denying entry of Default in retrospect under the surrounding
circumstances. Please consider the fundamental geometric errors generalized by
Counsel's Pythagorean theorem and consequences as explicit existence
postulated into perigal triangles described as proof in misrepresentation of facts
and Motions filed by Counsel's rearranging the Fact of the case calls for
Sanctions enforcement, applying to Defendant's Counsel's conduct.
1 |

p

a ge

This court deferred sanctions for Plaintiff's failure to attend medical mandatory
examination. Defendant is fraudulently is misleading this court otherwise. Which
this amended order failed to state the requisite of fact as requested by the
appellate court of the Fourth District court of the State of Florida.
Please consolidate all parties motion and affirm the approved hearings on
Defendant's and Plaintiff's attached motion, to be heard at the requested
scheduled time and date set by the Defendant. Assuming the motions meets the
same expectations as Plaintiff, with all high regards with respect, the said shall
be executed. In light kindly allowed your Judicial assistance to add and notice the
consolidation of motions to be held on the same day and dates set b y the
Defendants.
Should you need further information do not hesitate, please contact me,
feel free to do so by phone call.(954) 297 5817.

Respectfully—Submitted on this 24th Day of December ,2018'

David Archer
7010 NW 89th Avenue
Tamarac Florida. 33321

Cc: Catri, Holton, Kessler & Kessler, P.A.
633 South Andrews Avenue, Third Floor. FI 33301

Fourth District Court of Appeal
Clerk of Court: lonn Weissblum.

2 | P a ge

Re: 1/7/19 Hearing

☆

Inbox

Nichole Cooper

G=P Jan 4

Good Morning Mr, Archer. Regarding
your call this morning inquiring about our

m &
m pF

David Archer
Thank you for the update.

j||y§Ek

Mairale Dyson

Jan 4

to Nichole, me, Patricia
Jan 4 View details

Please be advised that per the Hon. Michael A.
Robinson, the additional Motion that has been
requested to be added to the January 7, 2019 8:30
hearing will NOT be added to that time slot.
Thank you
Show quoted text

ii

,hL

Sf'ied hS& RECE.pt

I

tru

Domestic Mail Only
1 P-0 «33!

w^^^~y_S_E

o
S Icirtiiiid^tenFSS

;eO

'

usos.com"•

n Return Receipt (hanBo'py)

rR

a

□
□

fa
ru

fin

,RS
*

y<\OYfjg^V

fljjjlj

/<6:/ Postm^, \ ,,

sssssr— .jfcst\Mj7*x •»
2

Postage

f*.;

fZ76U

t

rR 4Total Postage andt^BfUiJ

i
LUr

irR
□
p-

...... mini U

"ft
USPS Certified Mail #
70191120000117588665
Return Receipt
USPS Return Receipt tt
9590940259040049565638
First-Class Mai 1®
1
$2.60
Large Envelope
Dome-. ic
fort laud:
FL 33301
Weight:0 Lb 20 Oz
Estimated Delivery Date
Thursday 07/09/2020
Certified
USPS Certifieu Mail <
701911200001175886/7 .'
Return Receipt
USPS Return Recti--9590940250679092. j9
t'0h 'i ,

i

$3.55 <jtk
J
$2.85
$2.60 fv
*»" V

55
$2.85

Total:

$18.00
i

Cash
Change

$20.00
• ($2.00)

AAX^***X **'**XX'X'K'X'XXXXX1CJC't(*lCX'X1Ci(X*1ClCXXik

Due co limited transportation
availability as a result of
nationwide C0VID-19 impacts
package delivery times may be
extended. Priority Mail Express®
service will not change.
X**********#************************.,.*

In a hurry? Self-service kiosks offer
quick and easy check-out. Any Retail
Associate can show you how.
Text your tracking number to 28777
(2USPS) to get the latest status.
Standard Message and Data rates may
apply. You may also visit www.usps.com
USPS Tracking or call 1-800-222-1811.
Preview your Mail
Track your Packages
Sign up for FREE ®

i
IaLMRAI

i nformedde U

com.

IN THE CIRCUIT COURT OF THE SEVENTEENTH JUDICIAL
CIRCUIT IN AND FOR BROWARD COUNTY, FLORIDA.
David Archer
7010 NW. 89th Avenue.
Tamarac, Florida. 33321.
(954) 297 5817.
Brenda D Forman
Clerk of Circuit Court
201 South East, 6 street.
Fort Lauderdale Florida. 33301.
RE. Motion to stay proceedings pending the attached motion mailed to you
on JULY 6th 2020. Certified mail Receipt # 7019-1120-0001-1758-8672.
Dear Brenda Forman ,Clerk of Court;
Please see a copy of the enclosed motion with appendices mailed to the 17th
Judicial Circuit Court in and for Broward County Florida, which was not received,
under the surrounding circumstances in Case Number 17000822 (13).
Application is being requested to conduct the affects efficiently and
appropriately in the United Supreme Court Of America.
In light of this case complexities, abused of discretion, breached of duties and
violation of Fla. R. Civ P. plus Constitutional rights. Please understand the
situation in this case. Thanks in advance for your comprehensiveness and your
capacity to distinguish and find any surreptitious behavior between parties
involved.
Respect:

nbmittechon this Day of July 23 rd 2020.

^ cJr

■

David D Archer
7010 NW. 89th Avenue,
Tamarac, Florida.33321.
cc. U.S. Supreme Court; Clerk of Court: Wesley Catri Sr. : President Donald
Trump: George W Bush / Former President of the united States of America/
Axioms Files

IN THE CIRCUIT COURT OF THE SEVENTEENTH JUDICIAL
CIRCUIT IN AND FOR BROWARD COUNTY, FLORIDA.

David Archer

Case No. Cace 17000822(13)

Plaintiff

Fourth District Court. 4D18-2305

v.

Florida Supreme Court SC20-464

Winn Dixie Stores, Inc ., et al.

Motion to Stay Proceedings in this Tribunal. Pending the outcome of the
United States Supreme Court, for Writ of Mandamus.!writ of Prohibition!
pursuant to all applicable statues and Florida’s Rules of Civil Procedures
Rule 1.530 and 1.540. Federal Rules of Civil Procedures Rule 60 (hi and 5Q
(e) based on Constitutional Facts. Amendments and laws of the United States
of America.

Plaintiff David Archer seeks a stay of proceeding in this Circuit Court of the
Seventeenth Judicial Circuit In and For the State of Broward County , Florida.
Pending disposition of Petition in the above captioned cause “Writ Of
Mandamus” inadvertently ordering dismissal of case out of jurisdiction as the
Florida Supreme Court Case No., SC20-464 “to the extent “ prescribed. In such
case , to the degree recognized ; in which this case has spread and the issues
raised and overlooked by the courts seeing the size and scale without in-dept
justice of errors under the surrounding circumstances in compliance to Federal
Rules Of Civ. P. 60 (b) and 59 (e) and in this instant case a stay is warranted if

1 | Page

There is (1) “ a fair prospect that a majority of the Court will vote to grant
mandamus,” and (2) “ a likelihood that irreparable harm will result from the
denial of the stay.” Hollingsworth v. Perry, 558 U.S. 183, 190 (2010) (per
curiam). Mandamus may issue when “ (1) no other adequate means [exist] to
attain the relief [the party Jdesires,’ (2) the party’s right to issuance of the writ is
clear and indisputable.

< u

Ibid. ( quoting Cheney v. United States Dist, Court for

D.C., 542 U.S. 367, 380-381 (2004). “ The traditional use of the writ in aid of
appellate jurisdiction .... has been to confine [the court against which mandamus
is sought] to a lawful exercise of its prescribed jurisdiction.” Id. At 380 (quoting
Roche v. Evaporated Milk Assn., 319 U.S . 21, 26 (1943). Plaintiff David Archer
Contends that these standards are satisfied here because the litigation is beyond
the limits of this court.
Plaintiff David Archer notes that the judge was asked to disqualify himself due to
Fear and Defendant counsel’s friendship with the Judge. This suit is based on
assortment of unprecedented legal theories, such as a substantive due process
right causing , irreparable harm. Error of the court’s failure in denying
Appellant hearing dates on all motions filed , ruling out of jurisdiction and the
Court’s failure to comply with Florida Rules of Appellate Procedures Rule 9.100
/P.9.330. 28 U.S.C SECTION 1651 (a)
Plaintiff alleges actual bias and lack of due process , that the duo relationship
Judge and Counsel actions and inactions violated the courts statutory duty and
have profoundly damaged and caused irreparable harm to Plaintiff’s fundamental

2 | Page

constitutional rights to a fair trial 28 U.S Code Section 144. Id. At (2) quoting
Etna Life Inc. Co. v. LaVoie, 475 U.S.813, 825 (1986); Withrow v. Larkin, 421
U.S 35, 47 (1975) 7lth and 10 th Amendment of the United States Constitution.
The judge ruled out of jurisdiction. (Canon 1:A) 28 U.S. C. SECTION 332 (d) See
Bundy v. Rudd, 366 So 2d 440 (Fla 1978) Oliveira v. State, 765 So 2d 90, (Fla 4th
DCA. 2020) See Attached Filed Motion with Appendices Exhibit (A)

Plaintiff request this court to stay any and all further proceedings , in light that
the application be granted under die surrounding circumstances displayed , as
consequences will result into a fair prospect of success in the United States
Supreme Courts for mandamus relief.

Respectfully Submitted by the Undersigned on this 6th Day of June 2020.

B\t.

/W r

David Archer Pro-se / Plaintiff
7010 NW 89th Avenue
Tamarac, Florida. 33321
(954) 297-5817

3 | P a.g e

I
Certificate of Service with Appendices
I Hereby Certify on this 06/ 06/2020 , that a true and correct copy of the
foregoing motion to stay any and all proceeding pending the outcome of Writ of
Mandamus to the UNITED STATES SUPREME COURT was mailed certified
mail #7019 1120 0001 1758 8672 , to the Clerk of the Court@ 201 SE 6th Street
,Fort Lauderdale ,Florida .33301 and to Counsel for the Defendant, Wesley Catri,
Catri, Holton . Kessler & Kessler .P.A @633 South Andrews Avenue, Third Floor,
Fort Lauderdale Florida.33301 certified mail # 7019 1120 0001 1756 8665.

By.
David Archer Plaintiff
7010 NW 89th Avenue
Tamarac, Florida. 33321
(954) 297-5817.

4 | Page

>*»S$eSB£

Page 5 of 5 with Appendix.

5 1 Page

Certificate of Service’
I hereby Certify that a true and correct copy of Motion to reinstate Writ of
Prohibition and the denied writ of mandamus for reconsideration and clarification
of orders of 06/08/20 and 06/16/2020 was mailed on this 20th Day of June 2020 , to
Counsel for Respondent Wesley Catri Esq, Catri, Holton, Kessler and Kessler P.A
@ 633 South Andrews Ave, Third Floor Fort Lauderdale Florida. 33301

By.

/•»

David D Archer
7010 NW 89th Ave.
Tamarac, Fla 33321
cc. Clerk of Courts
Axiom Files.
President Donald Trump.
Former President George W. Bush.
954 297 5817

PAGE 7 OF 7 WITH APPENDICES ATTACHED

7 | Pa ge

02/06/2019

ORD-Pay Filing Fee pro se civil appeal

The jurisdiction of this court was invoked by filing of a
Notice of Appeal in the lower tribunal. The $300.00 filing
fee, or a circuit court clerk's determination of indigent
status, did not accompany the Notice of Appeal as
required in Florida Rules of Appellate Procedure 9.110(b)
and 9.140(a). The filing fee is due and payable at the time
of filing REGARDLESS OF WHETHER THE APPEAL
IS LATER DISMISSED VOLUNTARILY OR
ADVERSELY. ORDERED, appellant shall pay the
$300.00 filing fee or file the circuit court clerk's
determination of indigent status in this court within ten
(10) days from the date of the entry of this order. The fee
may be paid electronically through the Florida Courts EFiling Portal - see the court’s website for details. Failure
to comply within the time prescribed will result in
dismissal of this cause and may result in the court
sanctioning of any party, or the party's attorney, who has
not paid the filing fee. If appellant has already been found
indigent for purposes of proceedings in the lower tribunal,
in this case, appellant shall file a copy of that order in this
court. If appellant does not have an order or a
determination of indigent status and believes that he or
she is insolvent, appellant shall complete the enclosed
application and mail to the Clerk of the Circuit Court
within fifteen (15) days from the date of this order. A
Notice of Compliance that you have applied for indigent
status, must also be filed with this court. The Clerk of the
Circuit Court shall forward the Clerk's Determination to
this court within ten (10) days of receipt. Failure of
appellant to comply with this order will result in the
dismissal of this appeal. **NOTE: This order does not
toll the time for filing any pleadings necessary to
prosecute this appeal and no extensions of time will be
entertained. Once the fee is paid, it is not refundable.
Except for dismissal, this court will take no action in this
appeal until the filing fee is paid or until a circuit court
clerk's determination of indigent status is filed.

02/06/2019

ORD-Writ Treated as
NOA

ORDERED that the petition for writ of certiorari filed in
this case is treated as a Notice of Appeal from the circuit
court's final order dated January 7, 2019. Fla. R. App. R
9.110. Appellant may file directions to the clerk under
Florida Rule of Appellate Procedure 9.200(a)(3) within
ten (10) days from the date of this order, and appellee
may file directions for additional documents and exhibits
within ten (10) days after the appellant’s filing of
directions to the clerk. The times for preparing the record
on appeal, serving the index to the record on appeal, and
for service of briefs are extended correspondingly.

02/18/2019

Case Filing Fee

rN THE CIRCUIT COURT OF THE
SEVENTEENTH JUDICIAL CIRCUIT,
IN AND FOR BROWARD COUNTY.
FLORIDA
CASE NO.: CACE17000822 (13)

DAVID ARCHER,
Plaintiff,
v.
WINN-DIXIE STORES, INC.,
Defendants.-

AMENDED ORDER ON THE COURT’S ORDER OF DISMISSAL
DATED NOVEMBER 26. 2018
THIS CAUSE, came before this Court on November 26, 2018 at Calendar Call upon the
Court’s own motion to dismiss for Plaintiff DAVID ARCHER’s violation of the Court’s Uniform
Trial Order and Order for Mandatory Calendar Call, and the Court being otherwise duly advised in
the premises, finds that:
FINDINGS OF FACT
1.

Plaintiff DAVID ARCHER filed suit against Defendant WINN-DIXIE STORES,

INC. on January 11, 2017, seeking damages for injuries sustained in a slip and fall incident on
January 17, 2013.
2.

On July 24, 2018, this Court ordered the matter set for Jury Trial and on that same

date issued the Uniform Trial Order and Order for Mandatory Calendar Call which set this case for
trial during the two week period commencing Decembei^2018 and scheduled the Mandatory
Calendar Call for November 26, 2018.

ft]

%

i

m
K';
m

P
B23

$

CASE NO.: CACE17000822 (13)
Page 2
3.

Plaintiff DAVID ARCHER had notice of both orders in light of the fact that he

filed a Notice of Appeal dated July 27, 2018 seeking to appeal the Uniform Trial Order, Order for
Mandatory Calendar Call, and three other orders.
4.

Plaintiff DAVID ARCHER received the Fourth District Court of Appeal’s Order of

November 5, 2018 wherein it granted Defendant WINN-DIXIE STORES, INC.’s Motion to
Dismiss the appeal of the Uniform Trial Order and Order for Mandatory Calendar Call and denied
Plaintiff DAVID ARCHER’S motion to stay without prejudice again establishing that the Uniform
Trial Order was in effect and that trial of this case was scheduled for the two week period of time
beginning December 3, 2018.
4.

Plaintiff DAVID ARCHER was properly noticed for an update deposition on

October 11, 2018, which was rescheduled for October 18, 2018 due to unforeseen circumstances
by the defense.
5.

Plaintiff failed to obtain an order of protection preventing the deposition from

proceeding and failed to appear for the deposition, as evidenced by the Certificate of NonAppearance prepared by the court reporter.
6.

In compliance with the Uniform Trial Order, Defendant WINN-DIXIE STORES,

INC. forwarded a proposed Joint Pretrial Stipulation, proposed Verdict Form, and proposed Jury
Instructions by regular mail, email and by eservice to Plaintiff David Archer on November 6, 2018
for his review and approval. When Plaintiff made no effort to participate in the preparation of
these required pretrial pleadings, Defendant filed a Unilateral Pretrial Stipulation on November 16,
2018.
CONCLUSIONS OF LAW:

The actions of Plaintiff DAVID ARCHER in failing to

CASE NO.: CAGE! 7000822 (13)
Page 3
attend the Mandatory Calendar Call, refusing to participate in the preparation of pleadings required
by the Uniform Trial Order, and failing to appear for his properly noticed update deposition or to
obtain a protective order preventing the deposition from proceeding, demonstrate his willful noncompliance with or deliberate disregard for the Orders of this Court.
Based on the foregoing, it is ORDERED AND ADJUDGED that Plaintiff DAVID
ARCHER’S case against Defendant WINN-DIXIE STORES, INC. is hereby dismissed, nunc pro
tunc, to the date of the original Order of Dismissal on November 26, 2018.
DONE and ORDERED in Chambers at Fort Lauderdale, Broward County, Florida, this
day of

, 2019.

C. ;w:/- CL
circuit r

Juoig

JAN
JUDGE MICHAEL A. ROBINSON
Copies furnished:
TRUE C-.U •••
Wesley L. Catri, Esquire, Catri, Holton, Kessler & Kessler, P.A., 633 South Andrews Avenue
Third
Floor,
Fort
Lauderdale,
FL
33301 (pleadingswic@chkklavy.com;
pleadingswec@chlcklaw.com: pieadings@,chkklaw.com: and
David Archer, Pro Se, 7010 N.W. 89th Avenue, Tamarac, FL 33321 (divadarch@.gmai 1.com).

IN THE CIRCUIT COURT OF THE 17th JUDICIAL CIRCUIT, IN AND FOR BROWARD
COUNTY, FLORIDA

DAVID ARCHER
Plaintiff,

CASE NO: CACE 17000822(13)

v.

ACTION FOR DAMAGES

WINN DIXIE STORES INC

JURY TRIAL DEMANDED

Defendant

ORDER ON PLAINTIFF'S AMENDED ORDER ON PLAINTIFF'S MOTION FOR
AUTOMATIC STAY OF ALL PROCEEDINGS PURSUANT TO SUBDIVISION (BH21
RULE 9.310 TO STAY FURTHER HEARINGS, ORDERS AND PROCEEDINGS
PENDING REVIEW OF PLAINTIFF'S APPEAL ,UNDER APPEALED IN THE FOURTH
DISTRICT COURT OF THE STATE OF FLORIDA: NO ORAL ARGUMENTS REQUESTED
IN THIS MATTER: AND OR TO ENTER DEFAIJI T,

This Cause having come before this Honorable Court's case on appealed from
The Fourth District Court for Amended order, of order dated November 5th
2018 Proceedings

pursuant to subdivision (b) (2) Rule 9.310 to stay further

hearings, Orders and proceedings pending review of Plaintiff's appeal, under
10 | P a g f"

appealed
requested

in the Fourth District Court of the State of Florida: No oral arguments
in this matter; and or to enter Default on Order On Plaintiff's

Amended Order on Plaintiffs Motion for Automatic stay of all Proceedings
Pursuant to Subdivision (b) (2) Rule 9.310 to stay further Hearings .Orders and
Proceedings Pending Review of Plaintiffs Appeal under Appealed in The Fourth
District Court of the State of Florida: No Oral Arguments Requested in this
Matter ; And or to Enter Default, based on Parties hearing
of July 24th,2018 ; together with the amended Defendant's " Motion For Entry
of Amended Order on Motion For Attorney's Fees and Cost Pursuant to Section
57.105. Florida Statues"
The Court thereby found that willfulness or deliberate disregard for the ruling of
The Orders of the Court dated 03/27/17 and 05/01/17 was not adhered to
by

the Defendant. Furthermore, this court was advised that no enlargement

was

never filed

and

Denied and Default Entry is entered against the Defendant Winn Dixie

Stores Inc. see

by the Defendant and ; as resulted. Sanctions are vacated

Ziff v. Stuber, 596 So 2d 754,755 (Fla 4th D C A. 1992)

Commonwealth Fed-Savings & loans Ass'n v. Tubero, 569 So. 2d 1271,273 (Fla
1990) Zeigler v. Fluston, 626 So 2d .1046 , 1047 (Fla 4th DCA 1992 ) Defendant's
Motion for Entry of Amended order for Sanctions and Fees are Denied, being
otherwise fully advised in the premises , the
Court finds that: At the time of this Court's July 24th 2018 hearing, the ruling
of

the previous Judge's ruling was not at issue until the facts came to light

after the appealed. Therefrom, this court finds that pursuant to Fla Rules Of
11 | P 3 K “

Civ P. 1.090 (b) and Rule 1.500(b) the time has expired for Defendant to seek an
enlargement

and being otherwise fully advised in the premises, the court finds

Default is Granted to the Plaintiff David Archer.
Therefore, it is hereby:

(1)

ORDERED AND ADJUDGED, that the Plaintiff David Archer

Motion filed on 07/18/18 to Name Experts Witnesses to Stay Defendant's
Motion to set for Trial and to Name Western Union as a Defendant in the
Alternative to hear Plaintiff's Motion on Default against Defendant , on
Motions

previously filed and to strike Defendant's Motion on Attorney's

Fees, is hereby GRANTED^ setting Damages at a later date by this Court.

(2)

ORDERED AND ADJUDGED that Winn Dixie Stores Inc ,
Defendant's

Motion to Compel / impose sanction for Fees and Cost

filed on 02/15/18 and!2/29/17 or heard by this Court is hereby Denied
With Prejudice. This court shall impose Plaintiff's 57.105 motion upon

Defendant, subject to the Proper filing of cost and fees.
DONE AND ORDERED in Chambers at Ft. Lauderdale, Broward County
Florida, this

day of November, 2018

THE HONORABLE JUDGE MICHAEL ROBINSON
CIRCUIT COURT JUDGE

Copies Furnished To:
4th. DCA Clerk of Court.

David Archer
7010 NW 89th Ave
Tamarac Fla, 33321

Catri,Holton,Kessler & Kessler, P.A
633 South Andrews Avenue
Third Floor, Ft Lauderdale FI. 33301

13 | ? a = e

THE WHITE HOUSE
WASHINGTON

November 7, 1991

Dear Mr. Archer:
On behalf of President Bush, thank you for your kind message. He
appreciates the interest that prompted you to send the
thoughtful
enclosure.
it. was good of you to remember him in this way.
With the President's best wishes and my own,
Sincerely,

Shirley M. Green
Special Assistant to the President
for Presidential Messages
and Correspondence

i

l
\

t

!
/

Mr. Dave Archer
Post Office Box 11246
St. Thomas, Virgin Islands

00801

Zz A/-/ )6< /

/ ,.....
/

/ A--

/

II^%HE, CIRCUIT COURT OF THE
SEVENTEENTH JUDICIAL CIRCUIT
IN AND FOR BROWARD COUNTY, FLORIDA
DAVID ARCHER
Plaintiff

CASE NO.: CACE 17000822(13)

V.

ACTION IFOR DAMAGJLiC____________ ____ —up
COPY 1
TTIRX.TKLAT DEMAJ sf

WINN-DIXIE STORES, INC.
Defendants

JAi : *

JAM 2 8 2019
ctBTo^cSSS^oumRROWAPD county, fl

PLAINTIFF’S SUPPLEMENTAL MEMORANDUM IN SUPPORT OF MOTIONS
FOR RECONSIDERATION AND CLARIFICTION OF THE COURT’S OWN
DISMISSAL ORDER DATED NOVEMBER 26T/H 2018 AND DEFENDANT’S
AMENDED ORDER DATED JANUARY 73-2019 . TOGETHER WITH ALL
APPEALED ORDERS : SUMMARIZING THE ERRANT CONDUCT GOING TO THE
HEART OF DEFAULT IMPACTING THE INTEGRITY OF THE COURTS.

Plaintiff submits this Supplemental memorandum in support of this cause,
states as follows : This court did not follow the orders of the Fourth District Court
Of Appeals ordered on November 5th as appealed on 07/31/18. See. Attached
Exhibit (A) CASE NO:. 2305-4D18 EXHIBIT (2). Whereby, the court lacked
Subject-matter jurisdiction when it decided to override an invoked appealed
cases . See . lovett v. Lovett, 112 So 768,776 (fla 1927) this court did not had
the procedural posture and power and therefore was not authorized to dismissed
and or amend its order of dismissal to dismiss the case. Once more, in this case,
Plaintiff seeks this court to review and to vacate its Orders and to enter default
against Defendant who has engaged in misconduct which goes to the heart of this
case causing irreparable harm to the Plaintiff. See Attached Exhibit ( B)

/•
/

Case No. Cacel7000822

Archer v. Winn-Dixie Stores Inc.

Page 2 of 7

(1) The Presiding Judge MICHAEL A ROBINSON in this matter and as this stated case
identified as a personal friend of ATTORNEY WESLEY CATRI SR, the parties have
known each other for years and can be considered as brothers of / or friends of the Judge.
(2) The parties, knowing that the Court as a rule are closed on Saturday and Sunday,
Plaintiff discovered by way of received E-MAIL that the Defendant was able to have an
order signed outside of Chambers, according to the enclosed e-filed signed order, e-file
from the defendant’s office.
(3) Defendant on Sunday filed a signed order dated 01/28/2018 E-filed # 67150318 , which
was signed on that same Day as stated on the Docket’s records , which was not done
during regular court’s hours and or days.
(4) On 01/29/2018 the court held an unapproved and or not agreed to by both parties hearing
granting the Defendant’s it’s motion which is considered a trial by ambush.
(5) Plaintiff requested a trial by JURY IN AS MUCH; NO MENTION OF A JURY TRIAL
HAS BEEN AFFIRMED.
(6) PLAINTIFF MAINTAINS THAT “IMPARTIALITY MIGHT REASONABLY BE
QUESTIONED” Fla, sta (2012) Chapter 38.10. Canon 3E (1)
(7) THE JUDGE WAS WELL AWARE ON SUNDAY JANUARY 28th, 2018 THAT
COUNSEL FOR THE DEFENDANT HAD TO BE IN COURT THE FOLLOWING
DAY AND SHOULD HAVE WAITED TO SIGNED THE ORDER ON THE 29th
OF January 29, 2018 IN THE CHAMBERS OF THE COURT.

THERFORE, UNDER THE SURROUNDING CIRCUMSTANCES AS
EXPRESSED, COUNSEL SHOULD BE REPORTED TO THE BAR BY THE
COURT AND SANCTION UNDER THE CIRCUMSTANCES, THE JUDGE
SHALL BE RECUSE FROM THIS CASE.

WHEREFORE, Plaintiff seeks the recusal of the Judge from deciding this
case for reasons set forth and allowing this case to be decided by a jury trial with
another Judge on the issues on damages for default.

Respectfully submitted, on this 28th Day of January 2019.

/

Case No. Cacel7000822

Archer v. Winn-Dixie Stores Inc.

Page 3 of 7

byL
David D Archer
7010 NW 89th Avenue
Tamarac Florida 33321

cc: Fourth District court of appeals
Florida Bar Association
Jeff Sessions Attorney General Office
President Donald Trump.
Axiom files.

CERTIFICATE OF SERVICE.
I Hereby certify that a true and correct copy was mailed and /or Hand delivered on this 28th
Day of January 2019 ; to the Defendant’s Attorneys ; WESLEY L CATRI Esq, CATRI ,
HOLTON, KESSLER & KESSLER @ 633 South Andrews Avenue, third floor, Fort Lauderdale
Florid;
01.
BY:'
David D Archer
7010 NW 89th Avenue
Tamarac Florida 33321
954 297 5817.

VV
Case No. Cacel7000822

Archer v. Winn-Dixie Stores Inc.

Page 4 of 7

AFFIDAVIT

I David Archer is an adult of lawful age , resident of Broward County Florida at 7010 NW
89th Avenue Tamarac, FI 33321.
That I am filing a motion for Judicial Disqualification or recusal as stated in the attached
exhibits .
That under the circumstances Plaintiff sees it fit to do so as stated in this request, as the records
shows that on Sunday 01/28//2018 what took place. I received an email from Defendant’s
counsel office representing that an order was signed by the Judge on the same day around 4: pm.

Respectfully Submitted on this 28th Day of January 2019.

By:
David D Archer
7010 NW 89th Avenue
Tamarac Florida,33321

Case No. Cacel7000822

Archer v. Winn-Dixie Stores Inc.

BLANK PAGES INTENTIONALLY FOR EXHIBITS

Page 5 of 7

Case No. Cacel7000822

Archer v. Winn-Dixie Stores Inc.

BLANK PAGES INTENTIONALLY FOR EXHIBITS

Page 6 of 7

Case No. Cacel7000822

Archer v. Winn-Dixie Stores Inc.

BLANK PAGES INTENTIONALLY FOR EXHIBITS

Page 7 of 7

Asjr**

FH.ED: BROWARD COUNTY. FI. Brenda D. Forman. CLERK. I/TU/2UIS 202:16 pyf.****

IN THE CIRCUIT COURT OF THE
SEVENTEENTH JUDICIAL CIRCUIT
IN AND FOR BROWARD COUNTY, FLORIDA
DAVID ARCHER
Plaintiff
V.
WINN-DIXIE STORES, INC.
Defendants

CASE NO.: CACE 17000822(13)
ACTION FOR DAMAGES

JURY TRIAL DEMANDED REE O EI VIE'

K JAN 3 0 2018
L' U.

PLAINTIFF’S MOTION FOR JUDICIAL DISQUALIFICATION OR RECUSAL
PURSUANT FLORIDA RULES OF JUDICIAL ADMINISTRATION: RULE 2-330 AD
.1

COMES NOW, David Archer, Plaintiff in the above styled captioned cause and movant
pursuant to Florida applicable laws and as grounds further states the following:
(L) The Presiding Judge MICHAEL A ROBINSON in this matter and as this stated case
identified in the captioned cause as a personal friend of ATTORNEY WESLEY CATRI
SR, the parties have known each other for years and can be considered as brothers of / or
friends of the Judge.
(2) The parties, knowing that the Court as a rule are closed on Saturday and Sunday,
Plaintiff discovered by way of received E-MAIL that the Defendant was able to have an
order signed outside of Chambers, according to the enclosed c-filed signed order, e-file
from the defendant’s office.
(3) Defendant on Sunday filed a signed order dated 01/28/2018 E-filed # 67150318 , which
was signed on that same Day as stated on the Docket’s records , which was not done
during regular court’s hours and or days.
(4) On 01/29/2018 the court held an unapproved and or not agreed to by both parties hearing
granting the Defendant’s it’s motion which is considered a trial by ambush.
(5) Plaintiff requested a trial by JURY fN AS MUCH; NO MENTION OF A JURY TRIAL
HAS BEEN AFFIRMED.
(6) PLAINTIFF MAINTAINS THAT “IMPARTIALITY MIGHT REASONABLY BE
QUESTIONED” Fla, sta (2012) Chapter 38.10. Canon 3E (l)
(7) THE JUDGE WAS WELL AWARE ON SUNDAY JANUARY 28™, 2Q18 THAT
COUNSEL FOR THE DEFENDANT HAD TO BE IN COURT THE FOLLOWING
DAY AND SHOULD HAVE WAITED TO SIGNED THE ORDER ON THE 29™
OF January 29, 2018 IN THE CHAMBERS OF THE COURT.

Case No. Cacel7000822

Archer v. Winn-Dixie Stores Inc.

Page 2 f

THERFORE, UNDER THE SURROUNDING CIRCUMSTANCES AS EXPRESSED,
COUNSEL SHOULD BE SANCTION AND THE JUDGE BE RECUSED

WHEREFORE, Plaintilf seeks the recusal of the judge from deciding this case for reasons
set forth and allowing this case to be decided by a jury trial.

Respectfully submitted, on this 30th Day of January 2018.

David D Archer
7010 NW 89th Avenue
Tamarac Florida 33321

cc: Fourth District court of appeals
Florida Bar Association
Jeff Sessions Attorney General Office
President Donald Trump.
Axiom files.

*

Case No. Cacel7000822

Archer v. Winn-Dixie Stores Inc.

page3r-.._-

CERTIFICATE OF SERVICE.
I Hereby certify that a true and correct copy was mailed and /or Hand delivered on this 30"’
Day of January 2018 ; to the Defendant’s Attorneys ; WESLEY L CATRI Esq, CATRI .
HOLTON, KESSLER & KESSLER @ 633 South Andrews Avenue, third floor, Fort Lauderdale
Florida 33301.

BY:,.
David D Archer
7010 NW 89th Avenue
Tamarac Florida 33321
954 297 5817.

V

Case No. Cacel7000822

Archer v. Winn-Dixie Stores Inc.

Page 4.

AFFIDAVIT

I David Archer is an aduli-resident of lawful age , resident of Broward County Florida at 7010
NW 89lh Avenue Tamarac. FI 33321.
and exhibit CA)8 3 m0t'°n ^ Judiciai Deification or recusal as stated in the attached motion
That under the circumstances Plaintiff sees it fit to do so as stated in this request, as the records
shows that on Sunday 0I/28//2018 - what took place. I received an email from Defendant s
counsel office lepresenting that an order was signed by the Judge on the same day around 4: pm.

Respectfully Submitted.

David D Archer
7010 NW 89th Avenue
Tamarac FIorida.33321

_i 3

Filing .4 671503IS E-Filed 01/28/20!8 04:1 1:00 PM
IN I HE CIRCUIT COURT OF THE
SEVENTEENTH JUDICIAL CIRCUIT
AND FOR BROWARD COUNTY, FLORIDA
CASE NO: CACE17000822
JUDGE: Robinson, Michael A. (13)

David Archer
Piaintiff(s)
vs.

ORDER RESETTING TRIAI

Winn-Dixie Slore Inc
Defendant(s)
j
THIS CAUSE having come before this Court on the following Motion:

1.

Plaintiff Motion for Continuance of the trial.

2.

Defendant Motion for Continuance of the trial.

3.

Pursuant to the agreement of the parties, this matter is rolled over to the
------------ —--------------- .-------.-------------docket.

X

4.

Court's sua sponte motion to rollover trial since it
was not reached on the
Trial Calendar, and the Court finds
a resetting to be appropriate. It is:
ORDERED AND ADJUDGED that this cause is hereby stricken from the
current Trial Calendar and shall
be reset on the Jury/Non-Jury calendar commencing 04-°9-2018
Calendar Call will be 03-26-2018 10:00 AM
in Courtroom 14155
of the Broward County Courthouse, located at 201 S.E 6ih
and unrepresented parties in this Cause

Street, Fort Lauderdale, Florida.

Attorneys record

are required to appear at this Calendar Call.

The pretrial procedures contained in the original trial order shall
remain in effect and all time limits
should be adjusted to the new trial date.

01 -28-201*8 °RDEREDChamberS' f0rt Lauderdate-

county, florida
CA'

M

CACE1700Q822 01-28-2018 4.10 PM

CIRCUIT COURT JUDGE

ff you are a person with a disability who needs
in this proceeding, you - ................ - FL

court appearance, or
appearance is
A

B

a

<h.

Instr# 115478603 , Page 1 of 1, Recorded 12/03/2018 at 04*28 PM
Broward County Commission
**** FILED: BROWARD COUNTY. FL Brenda D. Fonnan. CLERK 11/26/2018 11:30:00 AM

Filed In 01pen Court,
CLERK (|F THE CIRCUIT COURT

on

\t bup /r\

BY

IN THE CIRCUIT COURT OF THE SEVENTEENTH
JUDICIAL CIRCUIT, IN AND FOR BROWARD
COUNTY, FLORIDA
CASE NO.:

Dw‘4 Rn& ke/z

Plaintiff,
)
)
)

vs.

5

ORDER ON

! ■tu<r,a,n7.s/nao&n.

-f ^

)
)
)
)
)

Defendant.

/)
/ < Sin e c

G>

/

„ THIys'AUSE W3S conside^d bYthe Court on the following Motionfs)/?<

Tr
K) - y. ^

c

77^

'

HEARING was held on
THE COURT having considered the grounds for the Motion, taken testimony, heard
argument and
considered the applicable law, it is,
ORDERED as follows:

±L

n

-At,

fa, h

it
ha UtQ rjn rX\ ej\ & /v? *' La
—/ £

Fn, La~t„
r.«,]

F.*n

Of

^ l/A ¥ri * ~^ ^
/,? /)i/?/0^^ /2_

/ < <:si n,T_____

DONE AND ORDERED ON /V.-s? >y -> /.
Broward County, Florida.
^/Y

Copies furnished:

A -r' g

r

,20/^Tn Foi

CIReqiT JUDGE
D By E-mail/Efiling Portal

a ■<.

-// ^

Ifeif In Open Court
□ By Mail

BC/CA118 (Rev 08/16)

^
A, //

.auderdale,

/? yi r>

Instr# 115225834 , "Page 1 of 1, Recorded 07/26/2018 at 04:55
Broward Couraty Commission
****

*4

-V

pm

BROWARD COUNTY;'FL Brenda D. Forman. CLERK 7/24/2018 4:30:00 PM.

v..

Si'

Filed in
Open Court,CLERK 0/? THE cfl
bRT
ON
By

s*■»

Hrc5

WLC/py
BL-34628-C

IN THE CIRCUIT COURT OF THE
SEVENTEENTH JUDICIAL CIRCUIT,
IN AND FOR BROWARD COUNTY,
FLORIDA
CASE NO.: CACEI7000822 (13)
1'

DAVID ARCHER,
Plaintiff,

A

V.

WINN-DIXIE STORES, INC.,
Defendants.

ORDER ON MOTION FOR ATTORNEYS FEES AND COSTS! PURSUANT TO
SECTION 57.105, FLORIDA STATUTES 'v
• ' \
THIS CAUSE, having come before this Court upon DEFENDANT’S MOTION FOR

■

4-

r

ATTORNEYS FEES AND COSTS PURSUANT TO SECTION 57.105, FLORIDA STATUTES
and the Court having heard argument of counsel, and being otherwise duly advised in the premises,
it is,
ORDERED and

/O

that said Motion be and the same is hereby

$(?cL

~~f~l

HL
^ "M
^5

LS.

J&S PC'.
/v
17 5

erz. j S

hs*- f/ ^9 V/

t

o

(jL
/\j/\

Ca &./r~.A-r

/

C)ef S^tr ^ O
DON

bounty,

Florida, thi^^^
iy of

.,2018.

Copies furnished:

JUDGE MICHAELfA>

INSON

"tTanr1" & KeSSlCT' P A- 633 S“h AndreWS

David Archer, Pro Se, 7010 N.W. 89th Avenue, Tamarac, FL 33321.

'

t,

VVLC/py
BL-3462S-C
J*

IN THE CIRCUIT COURT OF THE
SEVENTEENTH JUDICIAL CIRCUIT.
IN AND FOR BROWARD COUNTY
FLORIDA
CASE NO.: CACE17000822 (13)
DAVID ARCHER,
Plaintiff,
v.

WINN-DIXIE STORES, INC.,
Defendants.

ORDER ON MOTION FOR ATTORNEYS FEES AND COSTS PURSUANT TO
SECTION 57.105, FLORIDA STATUTES
THIS CAUSE, having come before this Court upon DEFENDANT’S MOTION FOR
ATTORNEYS FEES AND COSTS PURSUANT TO SECTION 57.105, FLORIDA STATUTES,
and the Court having heard argument of counsel, and being otherwise duly advised in the premises,
it is,
/r

ORDERED and ADJUDGED that said Motion be and the
same is hereby

.P&wT//;'
-1

MI

5k.
fM

rN~J\

' V-

.

-=

f •>

i
—r"

dL

■, *

j

r

U77

i

/.

J

f

r

/ jt

/O

L±11J / ; 7

1

lV

'- .-.

------------------------------ :

'H

l,.s-

A -l. /V /.

i i

—

/

i

' i

:

f±

DONE and ORDERED at Fort Lauderdale, Broward County, Florida, this
!

/'
) (.L-ij

A._

-day of

,2018.
!

■

(>

JUDGE MICHAEEM!BWS,0^s " "

Copies furnished:
jij£ 2 k ?n *8
Wesley L. Catri, Esquire, Catri, Holton, Kessler & Kessler,
P.A., 633 South Andrews Avenue,
Third Floor, Fort Lauderdale, FL 33301; and
TRUE COPY
David Archer, Pro Se, 7010 N.W. 89th Avenue, Tamarac FL 333U

£FXN/ gr / (A ^

A

CASE NO.:

/)f) if
Plaintiff,

)

U

t

vs.

)

0; v -

)
)
)

Defendant.

ORDER ON

llA/kA

A.

V

> C

/

/Met- /kl

)

,i'

d. A AA /3 AA - -^sA
)
/:

/

THIS CAUSE was considered tythe Court on the following Motion(s) _h s
/ A* jA

A,

r**

ALil S£r±v/D

/><} •

/
HEARING was held on

?-i A#)

77~

,.k

______

THE COURT having considered'thf
the grounds for the Motion, taken testimony, heard
considered the applicable law. it is,
argument and
ORDERED as follows:

—

/Tlr, r

/\

/

o/

(jp? \ 0 A
/

Sg-A AA

—l~- ns-*..• L- t-~-

7?k7

"

DONE AND ORDERED ON
Broward County, Florida.

A lJci
/ -1

\
!

jj^

/

In Open Court

/A

PuJ.

in Fort Lauderdale, _
•~v.

A

/■•■

/
/

/r. y

CIRCUirJuDGi"''11 Adge

O By Mail
BG/CA118 (Rev 07/17)

A;c,a A X

20

/
!

□ By E-mail/Efiling

All - c■

_7A - S

y

Copies furnished:

—A____/_ £? Act•A

c fn~,

Mj4^i3
Portal

TRUE CGPy

£zx*,Ar(jij

/

‘----

a

*

r :

l .

VVLC/py
BL-34628-C

IN THE CIRCUIT COURT OF THE
SEVENTEENTH JUDICIAL CIRCUIT,
IN AND FOR BROWARD COUNTY
FLORIDA
CASE NO.: CACE17000822 (13)
DAVID ARCHER,
/

Plaintiff,
v.
WINN-DIXIE STORES, INC.,
Defendants.

4

ORDER ON MOTION TO SET FOR TRIAT,

*

THIS CAUSE, having come before this Court upon DEFENDANT’S MOTION TO SET
FOR TRIAL, and the Court having heard argument of counsel, and being otherwise duly advised
in the premises, it is,

? i

v>:

ORDERED and ADJUDGED that said Motion be and the same is hereby
A

c

r\

-hy
/ f

! ' A:

'\

yy

:__ A

£~

/ y ' •

r
'' ^

/./
:•-

DONE and ORDERED at Fort Lauderdale, Brow'ard County, Florida, this
/
/

v.

o/

f\

'f -clay of

,2018.
/■

■ Circuit CotirtW^ t .
JUDGE MICHAEL A.^B^SgN'Copies furnished:
Wesley L. Catri, Esquire, Catri, Holton, Kessler & Kessler ,
1 hird Floor, Fort Lauderdale. FL 33301; and
David Archer, Pro Se, 7010 N.W. 89th Avenue, Tamarac FL

P.A., 633 SouTff’kfd^QPX venue,
33321.

J

